 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




NORIDIAN HEALTHCARE SOLUTIONS,
      LLC, CLAIMED SOME
    UNALLOWABLE MEDICARE
PENSION COSTS FOR FISCAL YEARS
       2006 THROUGH 2010


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      December 2013
                                                      A-07-13-00418
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                at https://oig.hhs.gov/

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Noridian Healthcare Solutions, LLC, claimed unallowable pension costs of $137,000 for
 Medicare reimbursement for fiscal years 2006 through 2010.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts. Previous
Office of Inspector General reviews found that Medicare contractors have not always complied
with Federal requirements when claiming pension costs for Medicare reimbursement.

For this review, we focused on one Medicare contractor, Noridian Healthcare Solutions, LLC
(NHS). In particular, we examined the Medicare segment and Other segment allowable pension
costs (which for this report we will refer to as “pension costs”) that NHS claimed for Medicare
reimbursement on its Final Administrative Cost Proposals (FACPs).

The objective of this review was to determine whether the fiscal years (FYs) 2006 through 2010
pension costs that NHS claimed for reimbursement under fiscal intermediary and carrier
contracts were allowable and correctly claimed.

BACKGROUND

During our audit period, NHS, formerly called Noridian Administrative Services, LLC (NAS),
was a subsidiary of Noridian Mutual Insurance Company (NMIC), whose home office was and is
in Fargo, North Dakota. NHS administered Medicare Parts A and B and Durable Medical
Equipment (DME) operations under cost reimbursement contracts with CMS. With the
implementation of Medicare contracting reform, NHS continued administering these Medicare
operations after receiving the Medicare administrative contractor (MAC) contracts for
Jurisdictions D and 3, effective June 30, 2006, and July 31, 2006, respectively.

During our audit period, NHS administered both fiscal intermediary and carrier contracts and
MAC-related contracts. This report addresses the pension costs claimed by NHS under the
provisions of its fiscal intermediary and carrier contracts. We reviewed the pension costs that
NHS used in its calculation of its indirect rates under the provisions of its MAC-related contracts
and are reporting those findings in Noridian Healthcare Solutions, LLC, Overstated Its Allocable
Pension Costs for Calendar Years 2006 Through 2010 (A-07-13-00419).

Also, effective May 13, 2013, NAS changed its name to NHS. Although we have addressed our
report to NMIC, we will associate the term NHS with our finding and recommendation regarding
the fiscal intermediary and carrier contracts’ pension costs claimed.


Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                         i
We reviewed $12,594,556 of Medicare Part A, Part B, and DME pension costs that NHS claimed
for Medicare reimbursement under the provisions of its fiscal intermediary and carrier contracts,
and reported on its FACPs, for FYs 2006 through 2010.

WHAT WE FOUND

NHS claimed pension costs of $12,594,556 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $12,457,080.
The difference, $137,476, represented unallowable fiscal intermediary and carrier contracts’
pension costs that NHS claimed on its FACPs for FYs 2006 through 2010. NHS claimed these
unallowable Medicare pension costs primarily because it based its claim for Medicare
reimbursement on incorrectly calculated CAS pension costs for FYs 2006 through 2010.

WHAT WE RECOMMEND

We recommend that NHS revise its FACPs for FYs 2006 through 2010 to reduce its fiscal
intermediary and carrier contracts’ pension costs by $137,476.

AUDITEE COMMENTS

In written comments on our draft report, NHS concurred with our recommendation and said that
it would revise its FACPs.




Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                      ii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1

           Why We Did This Review .................................................................................................. 1

           Objective ............................................................................................................................. 1

           Background ......................................................................................................................... 1
                 Noridian Healthcare Solutions, LLC ...................................................................... 1
                 Medicare Reimbursement of Pension Costs ........................................................... 2

           How We Conducted This Review....................................................................................... 2

FINDING ........................................................................................................................................ 2

           Claimed Pension Costs ....................................................................................................... 3
           Unallowable Pension Costs Claimed .................................................................................. 3

RECOMMENDATION .................................................................................................................. 3

AUDITEE COMMENTS................................................................................................................ 3

APPENDIXES

    A: Audit Scope and Methodology ............................................................................................ 4

    B: Federal Requirements Related to Reimbursement
       of Pension Costs................................................................................................................... 6

    C: Allowable Medicare Pension Costs for
       Noridian Healthcare Solutions, LLC,
       for Fiscal Years 2006 Through 2010 ................................................................................... 7

    D: Auditee Comments............................................................................................................. 11




Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                                                                        iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare contracts.
Previous Office of Inspector General reviews found that Medicare contractors have not always
complied with Federal requirements when claiming pension costs for Medicare reimbursement.

For this review, we focused on one Medicare contractor, Noridian Healthcare Solutions, LLC
(NHS). In particular, we examined the Medicare segment and Other segment allowable pension
costs (which for this report we will refer to as “pension costs”) that NHS claimed for Medicare
reimbursement on its Final Administrative Cost Proposals (FACPs).

OBJECTIVE

Our objective was to determine whether the fiscal years (FYs) 2006 through 2010 pension costs
that NHS claimed for reimbursement under fiscal intermediary and carrier contracts were
allowable and correctly claimed.

BACKGROUND

Noridian Healthcare Solutions, LLC

During our audit period, NHS, formerly called Noridian Administrative Services, LLC (NAS),
was a subsidiary of Noridian Mutual Insurance Company (NMIC), whose home office was and is
in Fargo, North Dakota. NHS administered Medicare Parts A and B and Durable Medical
Equipment (DME) operations under cost reimbursement contracts with CMS. With the
implementation of Medicare contracting reform, 1 NHS continued administering these Medicare
operations after receiving the MAC contracts for Jurisdictions D and 3, effective June 30, 2006,
and July 31, 2006, respectively. 2, 3

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P. L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MACs) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the terms “Medicare contractor” and “MAC” mean the fiscal intermediary,
carrier, or Medicare administrative contractor, whichever is applicable.

2
 DME Jurisdiction D comprises the States of Alaska, Arizona, Hawaii, Idaho, Iowa, Kansas, Missouri, Montana,
Nebraska, Nevada, North Dakota, Oregon, South Dakota, Utah, Washington, and Wyoming, and the territories of
American Samoa, Guam, and the Northern Mariana Islands.

3
 Medicare Parts A and B Jurisdiction 3 comprises Arizona, Montana, North Dakota, South Dakota, Utah, and
Wyoming.
Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                                             1
During our audit period, NHS administered both fiscal intermediary and carrier contracts and
MAC-related contracts. This report addresses the pension costs claimed by NHS under the
provisions of its fiscal intermediary and carrier contracts. We reviewed the pension costs that
NHS used in its calculation of its indirect rates under the provisions of its MAC-related contracts
and are reporting those findings in Noridian Healthcare Solutions, LLC, Overstated Its Allocable
Pension Costs for Calendar Years 2006 Through 2010 (A-07-13-00419).

Also, effective May 13, 2013, NAS changed its name to NHS. Although we have addressed our
report to NMIC, we will associate the term NHS with our finding and recommendation regarding
the fiscal intermediary and carrier contracts’ pension costs claimed.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the Medicare contractors’ annual pension costs, which are funded
by the contributions that these contractors make to their pension plans. To be allowable for
Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR.

Beginning with FY 1988, CMS incorporated specific segmentation language into Medicare
contracts that requires contractors to use either an allocation method or a separate calculation
method to identify and claim pension costs for Medicare reimbursement. Under the allocation
method, the contractor determines total plan CAS-based pension costs and allocates a share to
Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

HOW WE CONDUCTED THIS REVIEW

We reviewed $12,594,556 of Medicare Part A, Part B, and DME pension costs that NHS claimed
for Medicare reimbursement under the provisions of its fiscal intermediary and carrier contracts,
and reported on its FACPs, for FYs 2006 through 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                FINDING

NHS claimed pension costs of $12,594,556 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $12,457,080.
The difference, $137,476, represented unallowable fiscal intermediary and carrier contracts’
pension costs that NHS claimed on its FACPs for FYs 2006 through 2010. NHS claimed these

Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                          2
unallowable Medicare pension costs primarily because it based its claim for Medicare
reimbursement on incorrectly calculated CAS pension costs for FYs 2006 through 2010.

CLAIMED PENSION COSTS

NHS submitted Medicare pension costs of $12,594,556 for reimbursement, under the provisions
of its fiscal intermediary and carrier contracts, on its FACPs for FYs 2006 through 2010. We
calculated the allowable Medicare pension costs based on separately computed CAS-based
pension costs for the Medicare segment and the Other segment in accordance with CAS 412 and
413. For details on the Federal requirements, see Appendix B.

UNALLOWABLE PENSION COSTS CLAIMED

We determined that the allowable CAS-based pension costs for FYs 2006 through 2010 were
$12,457,080. Thus, NHS claimed $137,476 of unallowable fiscal intermediary and carrier
contracts’ pension costs on its FACPs for FYs 2006 through 2010. This overclaim occurred
primarily because NHS based its claim for Medicare reimbursement on incorrectly calculated
CAS pension costs for FYs 2006 through 2010. More specifically, this overclaim occurred
because of differences in the identification of the Medicare segment participants.

The table below compares allowable CAS-based pension costs with the pension costs claimed on
NHS’s FACPs and reflected in its accounting documents. Appendix C contains additional
details on allowable pension costs.

         Table: Comparison of Allowable Pension Costs and Claimed Pension Costs

                                  Medicare Pension Costs
                                 Allowable   Claimed by
                    Fiscal Year Per Audit        NHS                        Difference
                       2006      $4,293,873     $3,920,508                     $373,365
                       2007       2,731,780      2,628,012                      103,768
                       2008       2,246,193      2,396,505                    (150,312)
                       2009       1,647,404      1,892,572                    (245,168)
                       2010       1,537,830      1,756,959                    (219,129)
                       Total    $12,457,080    $12,594,556                   ($137,476)

                                        RECOMMENDATION

We recommend that NHS revise its FACPs for FYs 2006 through 2010 to reduce its fiscal
intermediary and carrier contracts’ pension costs by $137,476.

                                       AUDITEE COMMENTS

In written comments on our draft report, NHS concurred with our recommendation and said that
it would revise its FACPs. NHS’s comments are included in their entirety as Appendix D.

Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                      3
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $12,594,556 of Medicare Part A, Part B, and DME pension costs that NHS claimed
for Medicare reimbursement under the provisions of its fiscal intermediary and carrier contracts,
and reported on its FACPs, for FYs 2006 through 2010.

Achieving our objective did not require that we review NHS’s overall internal control structure.
We reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork at NHS’s office in Fargo, North Dakota, during April and May 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR, CAS, and the Medicare contracts applicable to this
        audit;

    •   reviewed information provided by NHS to identify the amount of pension costs claimed
        for Medicare reimbursement for FYs 2006 through 2010;

    •   used information that NMIC’s actuarial consulting firms provided, including information
        on assets, liabilities, normal costs, contributions, benefit payments, investment earnings,
        and administrative expenses;

    •   examined NHS’s accounting records, pension plan documents, annual actuarial valuation
        reports, and Department of Labor/Internal Revenue Service Forms 5500;

    •   determined the extent to which NHS funded CAS-based pension costs with contributions
        to the pension trust fund and accumulated prepayment credits;

    •   engaged the CMS Office of the Actuary to calculate the allocable pension costs based on
        the CAS (the calculations were based on separately computed CAS-based pension costs
        for the Medicare segment and the Other segment); and

    •   reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with the following audits and used the information
obtained during this review:

    •   Noridian Healthcare Solutions, LLC, Understated Its Medicare Segment Pension Assets
        as of January 1, 2011 (A-07-13-00417) and
Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                          4
    •   Noridian Healthcare Solutions, LLC, Overstated Its Allocable Pension Costs for
        Calendar Years 2006 Through 2010 (A-07-13-00419).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                      5
   APPENDIX B: FEDERAL REQUIREMENTS RELATED TO REIMBURSEMENT
                         OF PENSION COSTS

FEDERAL REGULATIONS

Federal regulations (FAR 31.205-6(j)) address allowability of pension costs and require that
contractors fund the pension costs assigned to contract periods by making contributions to the
pension plans.

Federal regulations (CAS 412) (as amended) address the determination and measurement of
pension cost components. This regulation also addresses the assignment of pension costs to
appropriate accounting periods.

Federal regulations (CAS 413) (as amended) address the valuation of pension assets, allocation
of pension costs to segments of an organization, adjustment of pension costs for actuarial gains
and losses, and assignment of gains and losses to cost accounting periods.

MEDICARE CONTRACTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”




Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                          6
                                 APPENDIX C: ALLOWABLE MEDICARE PENSION COSTS FOR
                                        NORIDIAN HEALTHCARE SOLUTIONS, LLC,
                                         FOR FISCAL YEARS 2006 THROUGH 2010

                                                                      Total          Other         Medicare       Total
           Date                     Description                      Company        Segment        Segment       Medicare

           2005           CY Allocable Pension Costs           1/                    $7,668,217     $3,393,577

           2006           Contributions                        2/    $17,000,000    $17,000,000             $0
                          Discount for Interest                3/    ($1,216,067)   ($1,216,067)            $0
     January 1, 2006      Present Value Contributions          4/    $15,783,933    $15,783,933             $0
                          Prepayment Credit Applied            5/    $11,902,212     $7,905,494     $3,996,718
                          Present Value of Funding             6/    $27,686,145    $23,689,427     $3,996,718

     January 1, 2006      CAS Funding Target                   7/    $11,902,212     $7,905,494     $3,996,718
                          Percentage Funded                    8/                       100.00%        100.00%
                          Funded Pension Cost                  9/                    $7,905,494     $3,996,718
                          Allowable Interest                  10/                            $0             $0
                          Allocable Pension Cost                                     $7,905,494     $3,996,718
           2006           FY Allocable Pension Cost           11/                     7,846,175      3,845,933
                          FY Medicare LOB*                    12/
                          Percentage                                                     12.39%         86.37%

           2006           FY Allowable Pension Costs          13/                     $972,141      $3,321,732   $4,293,873




                                                                      Total          Other         Medicare       Total
           Date                     Description                      Company        Segment        Segment       Medicare

           2007           Contributions                               $9,500,000     $9,500,000             $0
                          Discount for Interest                        ($703,704)     ($703,704)            $0
     January 1, 2007      Present Value Contributions                 $8,796,296     $8,796,296             $0
                          Prepayment Credit Applied                  $12,403,453     $8,094,779     $4,308,674
                          Present Value of Funding                   $21,199,749    $16,891,075     $4,308,674

     January 1, 2007      CAS Funding Target                         $12,403,453     $8,094,779     $4,308,674
                          Percentage Funded                                             100.00%        100.00%
                          Funded Pension Cost                                        $8,094,779     $4,308,674
                          Allowable Interest                                                 $0             $0
                          Allocable Pension Cost                                     $8,094,779     $4,308,674
           2007           FY Allocable Pension Costs                                 $8,047,458     $4,230,685
                          FY Medicare LOB*
                          Percentage                                                     12.77%         40.28%

           2007           FY Allowable Pension Costs                                 $1,027,660     $1,704,120   $2,731,780




Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                                                   7
                                                                      Total          Other         Medicare       Total
           Date                     Description                      Company        Segment        Segment       Medicare

           2008           Contributions                              $12,000,000    $12,000,000             $0
                          Discount for Interest                        ($860,533)     ($860,533)            $0
     January 1, 2008      Present Value Contributions                $11,139,467    $11,139,467             $0
                          Prepayment Credit Applied                  $13,471,168     $8,997,387     $4,473,781
                          Present Value of Funding                   $24,610,635    $20,136,854     $4,473,781

     January 1, 2008      CAS Funding Target                         $13,471,168     $8,997,387     $4,473,781
                          Percentage Funded                                             100.00%        100.00%
                          Funded Pension Cost                                        $8,997,387     $4,473,781
                          Allowable Interest                                                 $0             $0
                          Allocable Pension Cost                                     $8,997,387     $4,473,781
           2008           FY Allocable Pension Costs                                 $8,771,735     $4,432,504
                          FY Medicare LOB*
                          Percentage                                                     11.62%         27.68%

           2008           FY Allowable Pension Costs                                 $1,019,276     $1,226,917   $2,246,193




                                                                      Total          Other         Medicare       Total
           Date                     Description                      Company        Segment        Segment       Medicare

           2009           Contributions                              $17,000,000    $17,000,000             $0
                          Discount for Interest                      ($1,246,037)   ($1,246,037)            $0
     January 1, 2009      Present Value Contributions                $15,753,963    $15,753,963             $0
                          Prepayment Credit Applied                  $15,223,669    $10,824,487     $4,399,182
                          Present Value of Funding                   $30,977,632    $26,578,450     $4,399,182

     January 1, 2009      CAS Funding Target                         $15,223,669    $10,824,487     $4,399,182
                          Percentage Funded                                             100.00%        100.00%
                          Funded Pension Cost                                       $10,824,487     $4,399,182
                          Allowable Interest                                                 $0             $0
                          Allocable Pension Cost                                    $10,824,487     $4,399,182
           2009           FY Allocable Pension Costs                                $10,367,712     $4,417,832
                          FY Medicare LOB*
                          Percentage                                                      7.67%         19.29%

           2009           FY Allowable Pension Costs                                  $795,204        $852,200   $1,647,404




Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                                                   8
                                                                      Total            Other               Medicare             Total
           Date                     Description                      Company          Segment              Segment             Medicare

           2010           Contributions                              $12,000,000      $12,000,000                    $0
                          Discount for Interest                        ($863,109)       ($863,109)                   $0
     January 1, 2010      Present Value Contributions                $11,136,891      $11,136,891                    $0
                          Prepayment Credit Applied                  $15,598,959      $11,218,460            $4,380,499
                          Present Value of Funding                   $26,735,850      $22,355,351            $4,380,499

     January 1, 2010      CAS Funding Target                         $15,598,959      $11,218,460            $4,380,499
                          Percentage Funded                                               100.00%               100.00%
                          Funded Pension Cost                                         $11,218,460            $4,380,499
                          Allowable Interest                                                   $0                    $0
                          Allocable Pension Cost                                      $11,218,460            $4,380,499
           2010           FY Allocable Pension Cost                                   $11,119,967            $4,385,170
                          FY Medicare LOB*
                          Percentage                                                         6.81%                17.80%

           2010           FY Allowable Pension Costs                                     $757,270              $780,560        $1,537,830

    * Line of business.

ENDNOTES

 1/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes. We obtained the
    2005 calendar year (CY) allocable pension cost from our prior NMIC review (A-07-08-00259), issued November 4, 2008.

 2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
    contributions included deposits made during the CY and accrued contributions deposited after the end of the CY but within the
    time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the NHS pension
    segmentation review (A-07-13-00417). The amounts shown for the Other segment represent the difference between the Total
    Company and the Medicare segment.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the
    contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference
    between the present value of contributions (at the CAS valuation interest rate) and actual contribution amounts.

 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the
    CY. For purposes of this Appendix, we deemed deposits made after the end of the CY to have been made on the final day of the
    CY, consistent with the method established by the Employee Retirement Income Security Act prior to the implementation of the
    Pension Protection Act.

 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is
    created when contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with
    interest, to fund future CAS pension costs.

 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding
    that is available to cover the CAS funding target measured at the first day of the CY.

 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the FAR 31.205-
    6(j)(2)(i).



Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                                                                   9
 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the CY. Because any
    funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1), the funded
    ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding divided by the CAS
    funding target. For purposes of illustration, the percentage of funding has been rounded to four decimal places.

 9/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as the
    interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR
    31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding target,
    less the prepayment credit, were funded in 4 equal installments deposited within 30 days after the end of the quarter.

11/ We converted the CY allocable pension cost to an FY basis (October 1 through September 30). We calculated the FY pension
    costs as 1/4 of the prior year’s costs plus 3/4 of the current year’s costs.

12/ We determined the Medicare LOB percentages based on information provided by NHS.

13/ We computed the allowable Medicare pension cost as an FY pension cost multiplied by the Medicare LOB percentage. In
    accordance with CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare contract consisted of the
    NHS Medicare segment’s direct pension costs plus Other segment pension costs attributable to indirect NHS Medicare operations.




Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                                                              10
                                   APPENDIX D: AUDITEE COMMENTS





                                                           ~
                                                           NOR/DIAN.
                                                          Mutua/Insurance Company




            October 31, 2013




            Mr. Patrick J. Cogley
            Regional Inspector General for Audit Services
            Office of Audit Services, Region VII
            601 East 12th Street, Room 0429
            Kansas City, MO 64106


            Re: Report A-07-13-00418




            Dear Mr. Cogley,

            We have reviewed your draft report entitled Noridian Healthcare Solutions, LLC, Claimed Some
            Unallowable Medicare Pension Costs for Fiscal Years 2006 Through 2010, and offer the following
            comments:

            Recommendation:

                •     Recommend that No rid ian Health care Solutions revise it FACPs for FYs 2006 through 2010 to
                      reduce its fiscal intermediary and carrier contracts' pension costs by $137,476.
                          o We concur with this recommendation and will revise the Fina l Administrative Cost
                              Proposals.




            Sincerely,



            Brian Fellner
            Enterprise Vice President and Chief Financial Officer




                                           45 10 '131h Avenue G.W. • r argo, Nor1h Dako1a 50121·0001
           29305038                              ® Acgistored mark of Noridlan Mutuallnsursnco Company               9 -01




Noridian Healthcare Solutions, LLC, Pension Costs Claimed (A-07-13-00418)                                                    11
